<html>
<title> - TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT APPROPRIATIONS FOR FISCAL YEAR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 TREASURY, POSTAL SERVICE, AND GENERAL
                     GOVERNMENT APPROPRIATIONS FOR
                            FISCAL YEAR 1998

=========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

  SUBCOMMITTEE ON THE TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT 
                             APPROPRIATIONS

                      JIM KOLBE, Arizona, Chairman

FRANK R. WOLF, Virginia          STENY H. HOYER, Maryland
ERNEST J. ISTOOK, Jr., Oklahoma  CARRIE P. MEEK, Florida
MICHAEL P. FORBES, New York      DAVID E. PRICE, North Carolina
ANNE M. NORTHUP, Kentucky        
ROBERT B. ADERHOLT, Alabama      

 NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Michelle Mrdeza, Elizabeth A. Phillips, Jeff Ashford, and Melanie Marshall,
                            Staff Assistants
                                ________

                                 PART 6

                  GAO INVESTIGATION OF THE WHITE HOUSE

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
45-297 O                    WASHINGTON : 1998

------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director








  TREASURY, POSTAL SERVICE, AND GENERAL GOVERNMENT APPROPRIATIONS FOR 
                                  1998

                              ----------                              

                                        Thursday, November 6, 1997.

                  GAO INVESTIGATION OF THE WHITE HOUSE

                               WITNESSES

ROBERT P. MURPHY, GENERAL COUNSEL, U.S. GENERAL ACCOUNTING OFFICE
DAVID L. CLARK, JR., DIRECTOR, AUDIT OVERSIGHT AND LIAISON, U.S. 
    GENERAL ACCOUNTING OFFICE
    Mr. Kolbe. This subcommittee will come to order. This is an 
oversight hearing of the Subcommittee on Treasury, Postal 
Service, and General Government. I will begin with an opening 
statement. I will call on my colleague, Mr. Hoyer, for some 
remarks before we hear from the General Accounting Office.

                      Chairman's Opening Statement

    This morning we are holding this hearing in order to hear 
from the General Accounting Office regarding the status of 
their review of operations in the Executive Residence, and 
specifically, their ability to verify, as the White House 
claims, that there have been 938 overnight guests in the 
Executive Residence.
    On March 20, 1997, I asked the GAO to complete three tasks: 
First, an audit of what is known as the unvouchered 
expenditures of the Executive Office of the President, those 
expenditures made on the signature of the President or the Vice 
President; second, a review of the reimbursable activities and 
obligations of the Executive Residence; and third, a review of 
the overnight stays within the Executive Residence.
    We are now 7 months down the road and at the point where 
the GAO has been unable to satisfy the Committee's request as 
it relates to overnight stays. They are unable to satisfy this 
request because the White House is doing something that has 
become all too common. They are stonewalling. Quite frankly, 
this attitude on the part of the White House is getting old. As 
Chairman of the Subcommittee with oversight of White House 
operations, I am tired of the White House telling us that we 
have no right to know about their operations. I have been 
refused a witness by the White House; I have been refused 
answers to questions related to reimbursements of the cost of 
activities within the Executive Residence; and now this 
Subcommittee is being refused access to information through a 
GAO investigation. I think these refusals are serious matters.
    The purpose of the hearing today is to get facts from the 
GAO regarding the status of their investigation of overnight 
stays in the Executive Residence. Once we have this information 
at hand, we will use the facts to determine the value of 
proceeding with this investigation and what the next 
appropriate steps might be. But let me make at least one thing 
very clear from the start. In the event that this Subcommittee 
cannot have its questions answered regarding overnight stays 
within the Executive Residence, I will consider this a direct 
interference with the Committee's jurisdictional responsibility 
to oversee the use of Federal funds.
    I am fully aware of the fact that the White House insists 
there are no costs to overnight guests. Furthermore, it has 
been suggested that because a direct link between Federal funds 
and overnight stays cannot be established, this Subcommittee 
has no right to the information regarding these stays.
    Well, there are costs. There are costs to overnight stays. 
And the Federal taxpayer is footing the bill. Despite the fact 
that the White House does not have a cost accounting system in 
place to quantify these costs, there are costs to hosting at 
least 938 people in the White House. To try and suggest to the 
American public that it is otherwise is really an insult to the 
intelligence of the American people.
    But the issue of a specific cost for each overnight stay is 
not relevant to GAO's audit of the number of overnight guests 
and overnight stays. What the Subcommittee is asking for is 
workloads within the Executive Residence. It is that simple. 
There is nothing sinister about our request. Although I will 
say that I am alarmed by suggestions that political donors were 
given an overnight stay in the Lincoln bedroom as a way of 
showing gratitude for their generosity. The White House is the 
people's House; it should not be sold to the highest 
contributor.
    Let me explain why this Subcommittee believes it is 
critical to understand the operations of the Executive 
Residence. On October 1, we gave the President $8 million of 
taxpayer dollars to operate his private home. That doesn't 
include the $2 million that the President receives from outside 
sources to support political, ceremonial, and official events 
that are hosted in his home, the White House. Of this $8 
million appropriation for the Executive Residence, $6.3 million 
funds 89 full-time employees, including 36 full-time domestic 
staff--maids, butlers, chefs, housekeepers, doormen, so forth. 
The domestic staff cares for the First Family and their guests. 
It is estimated that this year the taxpayer will foot a 
$550,000 bill for overtime paid to this domestic staff. That is 
an increase of 40 percent since the last full year of the 
previous administration, the Bush administration.
    The question I think is fairly simple: What are the 
workloads of the domestic staff? Why does the Executive 
Residence need $550,000 in overtime pay for 36 full-time 
employees? I have been told that overtime costs are high 
because, ``This is a very active President.'' Well, that answer 
just doesn't cut it. It is a nonanswer. I want to know, are we 
paying to tend to the needs of 938 overnight guests? How many 
overnight stays are there in the residence and is the domestic 
staff working overtime to care for these overnight staffs? Is 
it only 938 overnight stays? We have every reason to believe 
that at least some of these guests stayed more than one night 
and/or on more than one occasion. So how many overnight stays 
are we actually talking about. Is it one day, one night, one 
person. Or are we talking about 2,000 or 3,000 overnight stays? 
What is the real number?
    Ironically, I have asked the GAO to verify a number that 
the White House made public, at least in part, in February of 
this year. I wonder, when the White House publicly released the 
list of 938 personal guests of the First Family, did they call 
all 938 people and ask them if they minded having their names 
made public? I doubt that they did that. Now despite this very 
public release of their names, the White House says that it is 
because of privacy that they can't allow GAO to have access to 
the documents they need to verify these names and the number of 
nights that were stayed.
    Let there be no mistake about it, I respect the privacy of 
the President and the First Family. And I am cognizant that the 
Executive Residence serves as his home. However, I strongly 
believe that not only do the American people have the right as 
to how their tax dollars are being spent but the Appropriations 
Committee has an obligation to review the expenditure of 
Federal funds in the Executive Residence.
    In that regard, I just want to quote one thing, and I am 
jumping in advance to the testimony we are going to have, but I 
think one sentence in Mr. Murphy's statement this morning says 
it all. And it is this sentence, where he says, ``seeking 
workload information--how many people are staying overnight--
for a taxpayer funded establishment, the Executive Residence, 
by the relevant Subcommittee of the House Committee on 
Appropriations is clearly a suitable Congressional inquiry.'' I 
agree.
    Let me make one final point. GAO is the investigative arm 
of Congress. They rely on agencies to voluntarily comply with 
the requests for documents and information during the conduct 
of audits and investigations. In the absence of voluntary 
compliance, there are other steps that can be taken, including 
demanding the information be provided and ultimately issuing a 
subpoena for the documents. Right now I am not sure what road 
we want to take as it relates to this particular investigation. 
The point I want to make is this, GAO's current system works. 
GAO responds to Congressional inquiries in a timely, 
comprehensive, and professional fashion. The system works. But 
only because Federal agencies cooperate with the GAO.
    In my opinion, by denying GAO the access it needs to 
complete an investigation requested by Congress, the White 
House is setting a remarkably bad example for all other Federal 
and executive agencies which come under the jurisdiction of the 
Committee.
    Unfortunately, this has become an all too familiar pattern. 
We have already seen it in the Whitewater investigations, now 
in the White House coffee and political investigations. Somehow 
documents and other verifying instruments are either misplaced 
or they are claimed to be simply nonexistent. The White House 
wants to cooperate. They say all the right words. But they 
can't, they simply can't find the documents. There is always an 
excuse for everything.
    So maybe as it relates to this investigation, perhaps if we 
wait long enough, we are going to see the Administration 
discover an unmarked box outside the White House Mess with all 
the paper the GAO needs to verify the number of overnight stays 
in the Executive Residence.
    I would now recognize the Ranking Member, Mr. Hoyer, for 
his opening remarks.

                     Mr. Hoyer's Opening Statement

    Mr. Hoyer. I thank you, Mr. Chairman, and I welcome Mr. 
Murphy and Mr. Clark to this, as I understand it, status report 
on their review. I don't know that there is an investigation 
going on but you have referred to on a number of occasions, Mr. 
Chairman. If there is, I am frankly not aware of that.
    Let me say that, in general, I don't believe there is a 
White House in history that has been asked to produce more 
documents more frequently on more different subjects than this 
White House. Period. In my view, a large part of it is 
harassment. I do not necessarily state that this is harassment. 
But the White House staff has been inundated by folks spending 
millions and millions and millions of dollars on 
investigations.
    The Foster incident tragedy is but one example where, 
frankly, some hysterical people harassed, harangued, looked to 
two special prosecutors, Senate committee, House committees all 
to look at that tragic event, all with the same result. All 
with the same result. But that does not dissuade and has not 
dissuaded this continuing pattern of looking at items that are 
looked at over and over again.
    I believe what is being requested here--and in my 
conversations with the GAO I think they will agree--is 
unprecedented. Period. No President has been asked to produce 
this information in history. Set the record straight before we 
start, this is the Chairman's request. He has that right. But 
it is not my request nor is it the Committee's request. It was 
the Chairman's request that you conduct these three 
assignments.
    First of all, Chairman Kolbe, for whom I have a great and 
unreserved respect, I want to make that clear, he and I agree, 
that a GAO audit of the Executive Residence of unvouchered 
expenses is overdue. Very frankly, you were doing it more 
regularly, I don't know that there is a reason you haven't done 
it in 1993, 1994 or 1995 or 1996 or didn't start until this 
year, but it is long overdue. I agree with the Chairman on 
that. I think it is appropriate.
    I defer to my good friend, and I do consider him my good 
friend. We have a disagreement on this. It is a serious, 
principled disagreement. But he is my good friend. And he is a 
man of integrity. Even friends and men and women of integrity 
have differences. But in this instance, I think he is 
absolutely correct concerning the need for your review of the 
reimbursable procedures used by this and other White Houses.
    However, the Chairman and I have differed since the March 
27 hearing--to which he referred, concerning your third 
assignment, a review of the number and cost of stays in the 
Executive Residence since January 1993. As I estimated, that is 
about 187 visitors per year, if you use a 4-year cycle. If you 
use 5 years because it was 1997 that the number was given, so 
it included part of 1997, it could be 4\1/2\ years, or 5 years. 
I divide it by five. But if you divide it by four, obviously it 
gets a little over 200 per year.
    Unfortunately, in your remarks you seem focused on this 
third assignment from Chairman Kolbe with which, as I said, I 
disagree in principle. I would like to stress that the 
Executive Residence is, as the Chairman has observed, the First 
Family's residence. And they have the right to have anybody 
visit it that they want.
    And furthermore, in my opinion, they have the right to have 
anybody visit it without telling Steny Hoyer or Jim Kolbe who 
they invite or who stays there. Period. Just as I have the 
right to invite people to my house in which I live without 
telling anybody.
    Now, I understand the Chairman's proposition and I have 
talked to GAO about it. And we will go through it in questions. 
Of course there is a cost. If the light in one of the bedrooms 
stays on an extra hour, there is a cost. If somebody flushes 
the toilet, more than what otherwise would be the case, there 
is a cost. It is my understanding that you will testify that 
that is a cost which is not able to be discreetly identified.
    I understand that there is some concern about whether there 
is additional overhead attributed to visits as a result of 
overtime that might occur. You will testify to that. Clearly, 
the American public, in wanting and directing the First Family 
to live in the house, knew that there was going to be a cost to 
that. In fact, the First Family, of course, reimburses, and you 
are going to be checking on that reimbursement, on food and 
other consequential expenses which are not public expenses, you 
are going to be checking on that. I would like to stress that 
the Executive Residence is their home, their private residence, 
as well as their public forum to serve this country.
    Every President deserves some privacy in his own home, just 
as we as elected Representatives deserve some privacy from the 
public eye. The White House is also a living museum and must be 
maintained as a treasured historical building, regardless of 
how many or how few guests the First Family entertains or has 
visit the White House.
    I look forward to your testimony. But I hope that as we 
pursue this matter we understand that what the White House is 
doing is what every President of the United States has done, 
trying to protect the institution of the President to the 
extent that they believe to be appropriate from being 
denigrated by the continued extraction of information which 
decimates the privacy of the individuals--the spouse, the 
children, the friends of children, spouse, and the President. 
This White House is trying to protect the institution from the 
process of contending that because you are the President of the 
United States, and because you live in the White House, that 
everything, therefore, is subject to disclosure and oversight.
    Clearly, this committee has a responsibility to ensure the 
appropriate expenditure of public funds. I share the Chairman's 
commitment to accomplishing that objective. On the other hand, 
the de minimus, perhaps unidentifiable or segregatable expense 
that is a consequence of the First Family living in that house 
and of Chelsea or the First Lady having visitors over and 
staying overnight are no more the business of the public or a 
consequential expense than the very de minimus expense of my 
daughters having friends over to my house. It never occurred to 
me, as I have said before, that Anne or Stefany or Susan having 
visitors at our house somehow would adversely impact on the 
budget of our house. And I don't think that is the case here. 
And I don't think it is the case in the lives of any of the 
private citizens who want to make sure that their Presidents 
and their families, while serving a public responsibility, have 
the ability to maintain a private life in a fish bowl. We need 
to be cognizant of our responsibility to ensure that objective.
    Thank you, Mr. Chairman.
    Mr. Kolbe. Mr. Istook, do you have an opening statement?

                     Mr. Istook's Opening Statement

    Mr. Istook. Thank you, Mr. Chairman.
    I just want to express my appreciation, Mr. Kolbe, for your 
interest and insistence that we do look at the full scope of 
matters. We all recognize the White House, the Executive 
Residence is not a normal home. It is Federal property, as all 
Presidents remind us periodically. It is intended to be a home 
in some ways of the American people as well as of the First 
Family. It does, as Mr. Hoyer, acknowledges, involve taxpayers' 
money. Also, there has been national concern over the scope of 
how visitors with the White House have been handled. When you 
have almost a thousand people with an unknown number of nights 
being involved in stayovers there, and there has already been 
proper national concern over security issues, over possible 
interplay with campaign finance, and with the awarding of 
Government contracts, just from people that were at the White 
House for coffees and so forth, much less for stayovers, then I 
think it is proper that we make some good faith, nonintrusive 
inquiries, and I think the Chairman's request are in that 
category. I think it is proper that we make those.
    I am sorry that some people don't like that but we all 
recognize that there are some things about our associations 
which will be part of the public record and it should be part 
of the public record when it involves public property in this 
way. I think the Chairman's initiative has been tempered. He 
has shown a respect for the privacy of the First Family to the 
degree that it should be. And also a respect for the interest 
of the taxpayers where the taxpayers have proper concerns.
    I wanted to say that in appreciation for the initiative 
that the Chairman has taken. I certainly would hope that we are 
going to have a little bit better cooperation than has been 
indicated from the material that has been sent to us so far 
from GAO. Because I don't think they have asked for anything 
that is really intrusive information regarding the First 
Family's personal guests. But there is a great interconnection 
between the people that were at the White House for these 
occasions and public policy issues that are of great concern to 
the country. So I appreciate your action on that, Mr. Chairman.
    Mr. Kolbe. Thank you, Mr. Istook. Mr. Price.
    Mr. Price. Mr. Chairman, I have no statement at this time. 
I do await the testimony of our witnesses with interest. Thank 
you.
    Mr. Kolbe. Thank you. Very well.
    Let's begin with the statement by Mr. Murphy, and I think 
because of its significance, perhaps we need to hear the whole 
statement. Mr. Murphy.
    Mr. Murphy. Mr. Chairman, Mr. Hoyer, members of the 
subcommittee, we are pleased to be here to discuss the status 
of our work with respect to the Executive Residence in the 
White House. I am accompanied by David Clark, who is the 
Director of Audit, Oversight and Liaison at GAO and whose staff 
is responsible for conducting the review that we are discussing 
today.
    I would ask, Mr. Chairman, I have excised some material----
    Mr. Kolbe. All right.
    Mr. Murphy [continuing]. From the full written text in 
order to avoid being here for some length of time. If I could 
present that orally and ask that the full text be included in 
the record.
    Mr. Kolbe. Well, the full text will be. I just want to be 
sure that your presentation covers all the points that are in 
your statement here.
    Mr. Murphy. I plan to, Mr. Chairman.
    Mr. Kolbe. Thank you.
    Mr. Murphy. As you summarized in your opening statement, we 
were asked to conduct essentially three reviews at the 
Executive Office of the President and the Executive Residence 
in particular. We were asked to audit certain fiscal year 1996 
expenditures, including those to operate the Executive 
Residence, that are accounted for solely on the certificate of 
the President or the Vice President and referred to as 
``unvouchered'' activities. We were asked to review certain 
processes and procedures relating to reimbursable expenses of 
the Executive Residence such as those for political events. And 
third, we were asked to review the number and cost of overnight 
stays in the Executive Residence since January 1993.
    The first assignment is proceeding on schedule. We are 
auditing the unvouchered expenditures, as we have done on six 
prior occasions since 1978 when those audits were specifically 
addressed in statute. We expect to complete the work and issue 
our audit report early next spring, which is generally 
consistent with the time frame for our previous unvouchered 
expenditures audits.
    The second assignment is also proceeding on schedule. The 
review of reimbursable expenditures of the Executive Residence 
involving official and unofficial events as well as personal 
expenses of the First Family.
    In connection with the third request that we determine the 
average cost of an overnight stay at the Executive Residence, 
and provide information on related overtime compensation for 
domestic staff within the Executive Residence we were asked to 
determine the number of persons who were overnight guests in 
the Executive Residence and the total number of overnight stays 
since January, 1993.
    The White House has publicly stated that there were 938 
overnight guests and 831 of their names have been reported in 
the media. The White House told us that the names of the 
remaining people were not provided in order to preserve the 
privacy of the First Family. We understand that White House 
staff or other Government employees who stayed overnight in the 
Executive Residence are not included in the total of 938 
overnight guests. The White House has not said how many nights 
the listed guests stayed individually or in total. We have made 
no progress in confirming the aggregate number of overnight 
guests and determining the aggregate number of stays within the 
Executive Residence because we have obtained no records from 
the White House for this purpose.
    To respond to the request, we simply require access to 
documents or systems that will establish the aggregate number 
of guests and stays. If such documents and systems do not 
exist, we need to ascertain the overnight guests, how long each 
stayed, and through multiplication we can determine and report 
the total number of overnight guests and stays since January 
1993.
    We have discussed this review with White House counsel and 
staff but have made no progress in obtaining the information 
needed to do the work requested. On April 24, 1997, we met with 
officials from several White House offices to advise them of 
the subcommittee's request, including the request for 
information on overnight stays at the Executive Residence. On 
June 17th, 1997, we provided the associate counsel to the 
President with a written list of four areas related to the 
overnight stays that we needed, including the nature, location, 
people responsible for source documents and systems showing 
overnight stays in the Executive Residence.
    On July 11, 1997, we met with the deputy counsel and the 
associate counsel to the President at which time we discussed a 
number of areas, including the sources and methods used to 
compile the lists of overnight guests that was previously made 
public.
    On July 28, the associate counsel sent us a list of names 
of those who were overnight guests at the Executive Residence 
and advised us that the list had been released to the public. 
We made several subsequent requests to the associate counsel 
for a follow-up meeting, and on September 19th we again met 
with the deputy counsel and associate counsel to discuss 
information relating to our review, but made no progress in 
obtaining any records.
    More recently, on October 16, 1997, we wrote to the deputy 
counsel of the President to insist on our access to records 
related to the number of overnight guests at the Executive 
Residence, and the beginning and ending dates of each guest 
stay since January, 1993. We made that request to achieve our 
objective of counting and reporting the number of overnight 
guests and stays.
    The associate counsel to the President replied to that 
letter on October 23 stating that she and others have compiled 
the previously published lists of overnight guests from 
documentation that included materials belonging to the First 
Family including personal and private correspondence. The 
letter characterized our request as one to gain access to 
private and personal papers of the First Family. In expressing 
concern about GAO inspecting these materials, the associate 
counsel expressed a willingness to continue discussing the 
matter. But as of today, we have received no records that would 
enable us to provide the subcommittee with the requested 
information on overnight guests and stays at the Executive 
Residence.
    We are not unmindful of the sensitivity of using materials 
of the First Family in performing our review. Accordingly, we 
have been, and continue to be, open to reviewing other 
materials to determine the number and duration of overnight 
guests and stays at the Executive Residence.
    At the invitation of the associate counsel, we met 
yesterday with White House staff, including the deputy counsel 
to the President, the associate counsel, and the general 
counsel to the Executive Office of the President to discuss our 
request. At that meeting we presented a letter proposing that 
we discuss the possibility of alternative sources of 
information with Executive Residence's chief usher, the 
administrative assistant, the head housekeeper, and others.
    During our discussions, the deputy counsel to the President 
made clear that she was not representing that there were no 
other sources of the number of guests and stays, only that the 
list of guests released for the White House was compiled at 
least in part from private materials. She also stated that 
there was no concern about GAO determining the aggregate number 
of guests and stays from nonprivate materials.
    This morning, we received by facsimile a letter from the 
White House associate counsel stating that the White House 
would assist us in interviewing staff at the White House and 
the Executive Office of the President to determine the 
existence of other documents and systems, but advising their 
belief that these documents would also be private materials 
that would be unavailable to the General Accounting Office.
    That is the status of our efforts to obtain the numbers of 
guests and the numbers of overnight stays. I should briefly 
mention two legal issues that were raised in passing in the 
associate counsel's October 23 letter.
    First, the associate counsel stated that GAO was seeking 
access to the private and personal papers of the First Family, 
suggesting that Presidential privacy interests shield those 
documents from scrutiny. The President does have a qualified 
privacy interest that must be weighed against the 
congressional, public, and other interests asserted in 
reviewing private materials.
    As you, Mr. Chairman, quoted earlier, we believe that 
seeking workload information--how many people are staying 
overnight for a taxpayer-funded establishment such as the 
Executive Residence by the relevant subcommittee of the House 
Committee on Appropriations--is clearly a suitable 
congressional inquiry. It is also significant that the 
intrusion here into the privacy interest of the President is, 
at most, minimal. GAO has proposed that it would not remove 
copies or original documents from the White House premises but 
would merely use the materials to determine aggregate numbers. 
GAO's record of protecting confidential information is 
exemplary. Careful observation of confidentiality restrictions 
is necessary for GAO to do its work.
    Second, it is important to make clear the authority under 
which GAO is performing the review of overnight guests and 
stays at the Executive Residence. Our review falls under GAO's 
authority to investigate matters related to the use of public 
money and to investigate and report matters ordered by an 
appropriations committee. The applicable statute provides that 
each department, agency or instrumentality of the United States 
Government shall give GAO the information it requires 
concerning its duties, powers, activities, organization, and 
financial transactions. GAO may inspect records to get the 
information. The Executive Residence is a Government facility 
staffed by Federal employees and funded with appropriated tax 
dollars.
    This subcommittee considers budget requests for the 
President for the operation and maintenance of the Executive 
Residence. In so doing, it desires to have information relating 
to the operation of the Executive Residence and the workload of 
the Government employees responsible for maintaining it, 
including overtime and duties associated with overnight guests 
as well as the number of overnight guests and stays.
    For purposes of our audit and access authority, we believe 
the Executive Residence is an instrumentality or establishment 
of the United States and that papers, correspondence, and other 
written materials documenting its use, whether created by the 
President or First Lady or received by them from private 
parties and used by Government employees to compile statistics 
released to the public, are records as that term is used in our 
authorizing statute.
    Mr. Chairman, that concludes my prepared remarks. I will be 
pleased to answer questions you or other members of the 
subcommittee may have.
    Mr. Kolbe. Obviously, there will be a number of questions. 
The timing of your completion of your remarks of your statement 
is good. However, we have 6 minutes remaining in this vote, and 
so we will stand in recess long enough to vote and resume as 
soon as everybody comes back from this vote.
    [Brief Recess.]
    Mr. Kolbe. The Subcommittee will come back to order.
    We have heard the statement by Mr. Murphy, and we also have 
Mr. Clark with us at the table here. We will begin with our 
questions at this point. Let me begin.
    I just asked the Ranking Member, Mr. Hoyer, if he was 
agreeable, to rather than have this hearing get disjointed in 
5-minute segments, we can do a 10-minute segment, and I think 
maybe we can get everybody hopefully in the first batch of 
questions. At least most of the questions in. We will probably 
have some cleanup questions at the end.
    I am just going to run you through the questions. I think 
the answers of these are pretty simple here. I just want to get 
this on the record, Mr. Murphy.
    First of all, dealing with the authority to conduct audits 
and investigation, is the GAO authorized to conduct audits and 
investigations of all the programs and operations of agencies?
    Mr. Murphy. Yes, sir. Yes. Activities and----
    Mr. Kolbe. And that is statutory authority.
    Mr. Murphy. That authority is found in title 31, which is 
the title that contains most of GAO's authorities. Section 712.
    Mr. Kolbe. And more specifically, what is the authority of 
the GAO for conducting an audit of what we are talking about 
here, of overnight stays within the Executive Residence?
    Mr. Murphy. The authority stems from that provision of the 
law, Mr. Chairman. Section 712 of title 31 provides that the 
General Accounting Office shall audit matters relating to the 
public expenditures of funds, and provides that the General 
Accounting Office shall provide appropriation committees with 
such help and information as the committee requests. And that 
is the authority under which we are examining this matter.
    Mr. Kolbe. Is there any limitation in your audit authority 
to what records of an agency you can inspect? You are entitled 
to inspect all records of the agency; is that correct?
    Mr. Murphy. We are entitled to inspect relevant records of 
the agency or establishment or instrumentality that we are 
taking a look at. There are some exceptions, if the President 
or the Director of the Office of Management and Budget asserts 
that there are issues related to national security, there are 
issues related to intra agency memos or letters or records 
compiled by law enforcement purposes, that the President or the 
Director of the Office of Management and Budget believe would 
impair substantially the operations of the Government if those 
are provided to GAO. So there are some restrictions on our 
access.
    Mr. Kolbe. I will come back in detail, in more detail on 
that in a little bit.
    In your written statement you talked about the definition 
of an agency, but the verbal statement you didn't go into that 
specifically. Would you tell us what is the standard definition 
of an agency?
    Mr. Murphy. There are really two definitions. The current 
definition, which is in title 31, of agency provides that an 
agency is a department, agency, or instrumentality of the 
United States Government. That language is a codification of 
earlier language which was not repealed but replaced and, which 
provided that an agency was an executive department, 
independent commission, board, bureau, office, agency or other 
establishment of Government. So both the current language and 
the language which it replaced were exceedingly broad.
    Mr. Kolbe. For the purpose of the GAO's authority to review 
agency records, do you consider the Executive Office of the 
President to be an agency?
    Mr. Murphy. We do.
    Mr. Kolbe. Now, the Executive Residence, separating the 
Executive Residence from the Executive Office, the Executive 
Residence is funded and maintained by the National Park 
Service. For the purpose of your authority to audit and inspect 
agency records, is the National Park Service considered an 
agency?
    Mr. Murphy. It is, Mr. Chairman. We have never had a 
suggestion in as many years as we have looked at National Park 
Service records that it was not an agency within the scope of 
our authority.
    Mr. Kolbe. Is the Executive Residence considered an agency?
    Mr. Murphy. It is considered by the General Accounting 
Office to be an agency because it is an establishment of the 
United States Government.
    Mr. Kolbe. In your previous audits in the Executive 
Residence that you did most recently, 1992, I believe, has this 
issue ever come up before?
    Mr. Murphy. No, it has not.
    Mr. Kolbe. Okay. A couple more questions before my time 
runs out here.
    In a letter dated October 16, you insisted that the GAO be 
given access to the books, documents, papers, and other records 
related to the number of overnight stays, and overnight guests.
    Is it your presumption that these books, documents, papers, 
and other records related to the number of overnight guests are 
maintained by the Executive Office of the President, and that 
because the EOP is considered an agency, GAO should be 
authorized to have access to those materials?
    Mr. Murphy. I would, Mr. Chairman.
    Mr. Kolbe. So what you are asking for is, documents that 
are maintained by the Executive Office; is that correct?
    Mr. Murphy. Yes.
    Mr. Kolbe. And again, there has never been any suggestion 
that the Executive Office is not an agency?
    Mr. Murphy. No.
    Mr. Kolbe. In their reply to you in--a few days later, the 
White House infers that the only documents relevant to 
overnight stays are personal and private correspondence, and 
they say that the First Family is not an agency and that the 
personal correspondence of the First Family is not an agency 
record.
    Does GAO agree that personal correspondence of the First 
Family is not an agency record and, therefore, GAO is not 
authorized access to these documents?
    Mr. Murphy. Personal records that are compiled by the First 
Family, if they are possessed and used by the Executive Office 
of the President and contain the information that is 
legitimately requested by a committee of the Congress we 
believe to be records of an agency, yes.
    Mr. Kolbe. Okay. They, so they would be?
    Mr. Murphy. They would be.
    Mr. Kolbe. They would be.
    The list of overnight guests that the White House released 
last February includes a number of public officials and 
dignitaries. Presumably there is correspondence or other 
documentation related to these public officials that is 
maintained by the White House office. You have told us this 
office is considered an agency and GAO is authorized to have 
access to the records.
    Has the White House so far given you any access to any 
White House documents that might verify the overnight stays?
    Mr. Murphy. No, they have not.
    Mr. Kolbe. They have not. Has your letter--have you 
requested specifically documents that might be in that 
location?
    Mr. Murphy. In June of this year, on June 17, Mr. Chairman, 
we provided a written document to the associate counsel for the 
President which summarized documents that we thought we needed 
in order to comply with the requests that we were working on. 
That request asked for, among other things, the nature and 
location of the people responsible for maintaining source 
documents and systems showing overnight guests and the number 
of times and durations of their overnight stays and any 
additional Government sources, systems or people, that we can 
use to confirm, in part or in total, information on the number 
of overnight guests and overnight stays that may be developed 
from the documents that the White House used itself. So in June 
we asked--we didn't limit our request to documents that were 
within the Executive Residence or even with the Executive 
Office of the President. For all we know, there may be Secret 
Service documents that would be useful in providing the 
information that has been requested.
    Mr. Kolbe. Well, that thought occurred to me, and this will 
be my last question here so we can get on, and I can stay 
within my 10 minutes here: That thought occurred to me. I think 
surely there have to be Secret Service documents. It is 
inconceivable that people come in and stay at the White House 
without the Secret Service knowing who those people are; don't 
you agree.
    Mr. Murphy. Anyone who enters the White House grounds.
    Mr. Kolbe. Right.
    Mr. Murphy. Has to come through the Secret Service check.
    Mr. Kolbe. So they have to maintain some kind of a list of 
those people. Have you specifically gone to the Secret Service 
to request that information?
    Mr. Murphy. No, we have not gone beyond the White House. 
Our understanding is that the Secret Service records of those 
who enter the White House grounds are returned to the White 
House on a monthly basis and considered White House documents.
    Mr. Kolbe. Oh. So they do not maintain the permanent 
record.
    Mr. Murphy. We have been told that they do not.
    Mr. Kolbe. That is interesting. All right. I have some more 
things that I will cover in another round. Mr. Hoyer.
    Mr. Hoyer. Thank you, Mr. Chairman.
    Mr. Murphy, can you describe for me the level of 
cooperation that you have received in the course of carrying 
out the audit of the Executive Residence, which is the first 
request? You, of course, have special authority under 105(d) 
for that; am I correct?
    Mr. Murphy. I think I could characterize that cooperation 
as excellent, Mr. Hoyer.
    Mr. Hoyer. Now, with respect to the second request, have 
you experienced restricted access to employees or documents 
concerning the reimbursable program?
    Mr. Murphy. Not at this date, no, sir.
    Mr. Hoyer. And would you also describe the cooperation of 
the White House with reference to that issue as excellent?
    Mr. Murphy. I think they have done quite well, yes, sir.
    Mr. Hoyer. So with respect to those areas that are not in 
dispute over what is or is not reviewable because of a personal 
nature, the cooperation has been excellent. In other words, 
except with respect to the issue in the third request where the 
White House is taking the position, as I understand it, that 
the way they obtained the information was to refer to documents 
they believe are personal to the President; with that 
exception, the cooperation on the first two questions, I am 
correct, has been excellent.
    Mr. Murphy. We have. Yes, sir.
    Mr. Hoyer. Okay.
    Now on the third assignment, as I understand it, the 
expenditures that are made here are under, you say, article 31 
which gives you your authority. Now explain to me what 
expenditures are made under sections 3524 and 3526(e) of 
article 31.
    Mr. Murphy. The unvouchered expenditures, which we are 
examining are not under that title. They are under a separate 
provision that is exclusively directed to the Executive Office 
of the President. It is found in section 105(d) and for the 
Vice President 105--106 provision. And the unvouchered 
expenditures that we are taking a look at are all of the 
expenses that are in the Executive Office of the President that 
are subject exclusively to the certification of the President 
and the Vice President.
    Mr. Hoyer. All right. Now, is it your contention they are 
not made under section 3524, 3526?
    Mr. Murphy. That request, yes, sir. That is----
    Mr. Hoyer. Not the request, the expenditures under the----
    Mr. Murphy. Section 3524 excludes expenditures under 
another provision of law. Section 105, it is section 105 that 
governs our audit of the unvouchered expenses of the Executive 
Office of the President.
    Mr. Hoyer. All right. Now, as I understand 3524, 
subsection----
    Mr. Murphy. I want to say there are not a great deal of 
differences there. One was passed in 1978, gave us access to 
the documents in the Executive Office of the President in 
section 105. The other one which you are addressing is very 
similar. It applies to unvouchered expenditures across 
Government. And they are essentially the same.
    Mr. Hoyer. And 3524 was passed subsequent to----
    Mr. Murphy. 1980.
    Mr. Hoyer. That was subsequent to, correct.
    Mr. Murphy. Yes.
    Mr. Hoyer. And what does it mean, then, when subsection (d) 
specifically excludes expenditures under sections 102, 103, 
105(d) (1), (3), or (5) and 106(b) (2) or (3) of title 331?
    Mr. Murphy. That will----
    Mr. Hoyer. What does that mean?
    Mr. Murphy. I understand that was in recognition that there 
were already authorities providing for GAO to look at those 
unvouchered expenditures. And so the subsequent law that was 
passed in 1980 excluded earlier passed authorities such as 105, 
which already directed the General Accounting Office to review 
unvouchered expenditures of the Executive Office of the 
President.
    Mr. Hoyer. What I understand, however, is that the White 
House's interpretation is that the exclusions referenced here 
cover the information that you are seeking. Now you disagree 
with that; am I correct?
    Mr. Murphy. My understanding was that in the letter from 
the associate counsel from the White House, that we received 
several weeks ago, the only access that the General Accounting 
Office had to the records of the Executive Residence came from 
section 105. Whether it was excluded in the provision you are 
reading, 3524, or was not covered by the provision that we have 
been talking about, section 716, which provides access to 
records of the executive branch. So yes, I have to agree with 
you. But it is somewhat of a--I think it was a broader thesis, 
if you will, that the associate counsel put forward.
    Mr. Hoyer. Counsel, I understand what you are saying. What 
I am trying to point out is that, as you point out, 
subsequently, we adopted legislation. Your contention is that 
the reason for the exclusion was because it was covered under a 
different section. The White House interpretation, as I 
understand it, is that the exclusion was to make it clear that 
there were certain documents that were not covered by the 
general authority. Now, I----
    Mr. Murphy. They were the same documents, though. So it is 
sort of hard for me to understand that argument.
    Mr. Hoyer. Well----
    Mr. Murphy. Unvouchered----
    Mr. Hoyer. Counsel, if I might, the issue, when you say the 
same documents, obviously they are not exactly the same 
documents. The issue is, as I understand it, who holds those 
documents. Your contention, as I understand it, Counsel, is 
that the White House residence is like any other agency of 
Government and therefore subject to the oversight and scrutiny 
and authority of your agency just like any other office, 
agency, department of Government.
    Mr. Murphy. That is correct.
    Mr. Hoyer. So that your contention is it has no special 
status as the private residence of the President of the United 
States as distinguished from every public office of the United 
States Government?
    Mr. Murphy. That is fair.
    Mr. Hoyer. Okay. I think that is your position. But I 
suggest that reasonable people on that issue, because of its 
unique status as the private residence of the President of the 
United States, could disagree. Would you say that reasonable 
people could disagree?
    Mr. Murphy. Mr. Hoyer, I will never say that reasonable 
people could not disagree on that issue.
    Mr. Hoyer. Good. In your statement you have gone to great 
lengths to define Executive Residence as an establishment of 
the United States to indicate--actually. I don't need my 
staff's written question on that. I might have even done it as 
well. You and I had a discussion, a very reasonable discussion, 
and this is where the Chairman and I, and I mentioned in my 
opening statement, have a difference. As I understand it, in 
talking to you and to Mr. Clark, your perception is you will 
not be able to segregate specific cost with the possible 
exception which you haven't decided yet of overtime pay, from 
the other cost from the general operating cost of the White 
House. Is that correct?
    Mr. Murphy. Let me ask Mr. Clark to address that.
    Mr. Clark. That is a fair statement.
    Mr. Hoyer. Which simply means, whether there are 2 visitors 
or 4 visitors or 20 visitors, it will be very hard to give us a 
number attributable to those visitors.
    Mr. Clark. Correct. That is correct. We are trying to 
determine--we were asked to determine the cost of an overnight 
stay. And that is a----
    Mr. Hoyer. And you have indicated to me that, 
theoretically, as I pointed out in my opening statement, there 
is an additional cost.
    Mr. Clark. We believe that.
    Mr. Hoyer. To the extent that there is another visitor in 
the White House, facilities will presumably be utilized during 
a stay, particularly an overnight stay, and the bathroom will 
be used and presumably a light may or may not be on for a 
longer period of time than it otherwise would be.
    Mr. Clark. Correct.
    Mr. Hoyer. So that, from a theoretical standpoint, there is 
an additional cost. What you are saying and what we have 
discussed is that it will be virtually impossible to segregate 
out and quantify that additional cost, correct?
    Mr. Clark. With the possible exception of overtime.
    Mr. Hoyer. Overtime, I said that. And you are still looking 
at that?
    Mr. Clark. Yes.
    Mr. Hoyer. Now let me ask you something. We have asked you 
three questions. In the opening statement, you indicated that 
your expectation is that you will have by early spring a 
conclusion on the first two, which is the normal time frame of 
this kind of a review; am I correct?
    Mr. Clark. Yes, you are.
    Mr. Hoyer. And my last question, because the Chairman is 
giving me the gavel, is in your request to the White House did 
you indicate that the third question was more or less or 
equally timely in terms of response and determination as the 
first two? In other words, did you tell them that we need this 
answer earlier than we needed the first two answers?
    Mr. Murphy. No. In fact I think we started--we started the 
others, working on the other two aspects of the request, before 
this one. It was in June, June 17th, that we first requested 
documents with respect to the third.
    Mr. Hoyer. So in the first two, again, Mr. Chairman, the 
point I am making is that you are on schedule.
    Mr. Murphy. We are on schedule for them.
    Mr. Hoyer. And on the third, but for this hearing, if you 
came up with it at the same time you came up with the other 
two, but for this hearing, or this request that we get this 
earlier, there would be no reason for the White House to expect 
that the scheduling was different for the third than from the 
first and second based upon that communication with you?
    Mr. Murphy. I am sorry, I am not quite sure I am following.
    Mr. Hoyer. We have three questions. I know I am going over 
time. There are three questions. You indicate in the normal 
course you expect your review of the first two and the answer 
to the committee to be in the early spring, correct?
    Mr. Murphy. We do.
    Mr. Hoyer. That is in the normal course. It hasn't been 
slowed down. It takes that long to do this right.
    Mr. Murphy. Right.
    Mr. Hoyer. I am asking about the third question. You didn't 
say to the White House it needed to be sooner, and my 
understanding is you didn't have any expectation that it was 
going to be done sooner.
    Mr. Murphy. No, we expected it to be done in the course of 
the review of the other two.
    Mr. Hoyer. So if you answered these three questions in the 
early spring of this year, it would have been your expectation 
that was to be a timely response; am I correct?
    Mr. Murphy. If we could provide the answers in early 
spring, yes. When we need the documents or access to the 
systems and records in order to provide that answer is a 
different issue. And that is why we were--we began in June 
seeking the documents or the information so that by early 
spring we would have all three of the general questions 
answered.
    Mr. Hoyer. Thank you. The answer I think was yes.
    Mr. Murphy. Yes.
    Mr. Kolbe. Time has expired. The time of Mr. Hoyer has 
expired. Mr. Wolf.
    Mr. Wolf. I thank you, Mr. Chairman.
    Mr. Murphy, welcome. I think this is really, having served 
on this committee for a number of years, I think this is just a 
part of the pattern that we have seen with the White House 
Travel Office, the difficulty, the GAO, the time spent; I don't 
think that has ever been really finally resolved. The GAO went 
back and forth. The clearances. We had situations whereby 
people from the White House would testify that they had 
clearances when they would be testifying with--that they did 
not actually have clearances. We had comments from Mr. McLarty 
saying that they were following the normal procedure that they 
did in the Bush and Reagan administration when at the time he 
didn't have a security clearance. We have seen the same thing 
with regard to the coffees, the tapes, the dribbling and 
dribbling out. And my sense is they will be exactly the same 
thing unless there is more activity on your part.
    Now you have asked for the information; is that correct?
    Mr. Murphy. Yes, we have.
    Mr. Wolf. Then your testimony has said you have now 
insisted for it. What is the difference between your asking and 
insisting? Is there a legal definition difference?
    Mr. Murphy. I don't believe so. We started with the--with 
an informal request, a typed note from one of our evaluators to 
the associate counsel of the President in June. And over a 
number of months, after that, we sought access to the--whatever 
records were available so that we could answer the questions 
presented in a relatively informal manner. I mean, we do our 
work within the executive branch of the Government to the 
extent that we can in a cooperative and open way. And sometimes 
that takes some negotiation. It takes some discussion. 
Sometimes it takes assurances that we will respect concerns of 
the agency itself.
    On a number of occasions, you mentioned the Travel Office 
investigation of the General Accounting Office. In order to 
obtain the documents that we needed in the time available, we 
agreed with the White House to maintain them within the 
Executive Office of the President itself. My understanding is 
that there are to this date documents there. So we started in 
an informal manner. And we concluded by October that we needed 
a more formal written request. And that is when we used the 
word ``insist.''
    Mr. Wolf. Insist. If my memory serves me, the Travel 
Office, the final resolution with that with regard to the GAO, 
did you not have some frustrations in your report, in the final 
report?
    Mr. Murphy. Yes, we did.
    Mr. Wolf. Yes, you did. So we now have a clear consistent 
pattern over years. I mean, you remember the political 
consultants that were running into the White House without 
security clearances, the difficult of trying to find that out. 
So we have gone from asked to insist. What is your next step? 
Somebody said it is a demand. Is that a formal definition of a 
demand? And how do you demand that? Do you go over and speak to 
them personally? Do you send them a letter? What is the next 
step?
    And, lastly, if a demand and if you could talk about a 
demand, what do you then do? Do you subpoena them? Do you have 
the ability to go into court and tell us what you will do since 
asked didn't work and insist didn't work? What is your next 
step to get this thing whereby you can have what you need to 
give the report?
    Mr. Murphy. The Congress has provided a statute that 
establishes those procedures, section 716 of title 31. It 
provides that before the General Accounting Office may issue a 
subpoena to an executive branch agency or official for 
documents, it must present a formal request, which the 
President or the Director of OMB may certify will not be 
complied on--complied with on a number of statutory grounds.
    One of those is that it would impede the--I think it is the 
sources of international intelligence. One of them is that it 
is an internal memo that would not be available in discovery or 
it represents a record of law enforcement proceeding and that 
to disclose those would impede the operations of the 
Government. The President or the Director of OMB, once they 
certify, that essentially ends our access to those documents. 
Without that certification, the General Accounting Office may 
go to Federal district court and seek a subpoena for records.
    Mr. Wolf. Are you prepared to do that?
    Mr. Murphy. That would be a matter that we discuss with the 
committee at the appropriate time.
    Mr. Wolf. But you won't----
    Mr. Murphy. I ought to say----
    Mr. Wolf. You won't just let this thing lie. I mean, you 
are moving up the line and you are prepared I would assume if 
the committee were to ask you, you are prepared to do that?
    Mr. Murphy. We met yesterday with White House staff. And as 
I said earlier, Mr. Wolf, I think the White House associate 
counsel has represented in a letter this morning that they 
would provide access to individuals in the White House that we 
could talk to about what other records and other systems exist. 
So we have got a number of things to do before we cross that 
line.
    Mr. Wolf. Well, I would just make a comment--well, one 
other question before I do. Has there ever been a problem like 
this with any other administration, Republican or Democratic 
administration trying to get the information that you can 
recall, just kind of stretching it out, Bush, Roosevelt, 
Eisenhower, Reagan? Have you had any problems that you can 
remember?
    Mr. Murphy. My tenure doesn't go back that far with the 
General Accounting Office, but I ought to say we have had 
access issues that we have had to work out with the President.
    Mr. Wolf. But have they all worked out?
    Mr. Murphy. I don't believe that we have ever sought a 
subpoena for records under section 716. And in the last 4 years 
in which I have been General Counsel of GAO we have only issued 
one formal demand letter, which was the Attorney General for 
some FBI records.
    Mr. Wolf. And are you ready to go to the demand letter now? 
That is our next step? Is that where we are?
    Mr. Murphy. I think we owe it to the White House to proceed 
with our request to them. And that is to have access to other 
individuals within the Executive Office of the President. To 
see if there are other records there. See if there is an 
alternative to obtaining the information that doesn't involve 
the private records of the President or the First Lady, and we 
don't know whether there are or not, because we haven't been 
given that access. It seems to me it behooves us to try to in 
good faith see if we can obtain the information.
    Mr. Wolf. I think you should. And in closing I think you 
should set a date, a time, because if you look at the pattern 
over the last 5\1/2\ years, it has been stonewalling, stopping, 
meetings, postponements, counsel's leave, they go off, a new 
person comes in, they have got to get familiar with the case. 
And there really doesn't seem to be a resolution.
    I think this is a fair request. And so I would just urge 
you to, you know, do everything outside of the normal process 
that you possibly can. But I think you have to have a date. And 
I think in all fairness, the credibility of GAO will sink quite 
dramatically if this thing ends the way some of the others have 
ended.
    I yield back the balance.
    Mr. Kolbe. Mr. Price.
    Mr. Price. Thank you, Mr. Chairman.
    Mr. Murphy, I would like to ask you to help us put this 
matter in perspective. You discussed the three aspects of this 
inquiry that you have underway, the first being the 
investigation of unvouchered expenditures and the second being 
the investigation of reimbursable expenditures.
    Now, as I understand your testimony, you are saying that 
both of these have gone very well. You describe cooperation of 
the White House as excellent, which is to say you have had 
access to all the documents you have needed. You have had no 
inordinate delays; you have had full cooperation. Is that true?
    Mr. Murphy. Yes, that is.
    Mr. Price. So now we are focused on this third area of 
inquiry, the number and the cost of overnight stays. You have 
not gotten the documents that you need to establish the 
aggregate number of guests and stays. You stress in your 
testimony you have not requested private and personal papers. 
You seem to believe that other sources exist to document these 
stays. Is that true?
    Mr. Murphy. We don't know. We have asked for whatever 
records would provide the information we need. We don't know 
whether they are there are nonprivate sources of information.
    Mr. Price. But you testify that the deputy counsel of the 
White House has stated that there is no concern there about GAO 
determining the aggregate number of guests and stays from 
nonprivate materials.
    Mr. Murphy. She represented that that is exactly right, 
that there isn't a concern.
    Mr. Price. And you also testified that the White House is 
considering your request to discuss alternative sources of 
information with the chief usher and others.
    Mr. Murphy. This morning we received a letter from the 
White House which said that they had considered it and they 
would cooperate with providing access to individuals in the 
White House and the Executive Office of the President for us to 
determine whether there were such additional documents that 
were nonprivate.
    Mr. Price. All right. So what does your complaint with the 
White House come down to, that this hasn't occurred quickly 
enough?
    Mr. Murphy. Our complaint was that we started in June 
requesting this information. And, to date, we don't have any of 
it.
    Mr. Price. All right. But you do have some sign things are 
proceeding, it would appear. I guess it does raise the question 
what kind of signals you have sent to the White House.
    Do you in fact regard this third aspect of the inquiry as a 
higher priority than the first two aspects?
    Mr. Murphy. They are equal in our minds. We are proceeding 
on all three.
    Mr. Price. Do you regard this third aspect of the inquiry 
as a higher priority now than you did earlier?
    Mr. Murphy. No, it is the same priority as it has been all 
along.
    Mr. Price. And have you informed the White House at every 
stage along the way that this third aspect of the inquiry, had 
an equal priority with the other aspects, or do they have any 
reason to think that they have only recently been informed of 
the priority you assigned to this third aspect?
    Mr. Murphy. I really can't imagine that, Mr. Price. We gave 
a written document to the White House on June 17 specifically 
asking for the documents that we are asking for now. And we 
have had a number of meetings. We have had attempts to have 
meetings. We have discussed with them. We have now written 
them. And we still don't have access to the documents. If the 
White House is of the view that the third assignment in the 
request was somehow a lower priority than the other two or less 
important to us, I don't know how they got that idea, quite 
frankly.
    Mr. Price. Well, conversely, is there any grounds on which 
they might have thought it did not have as high a priority as 
you now are assigning to it under the scrutiny of this 
committee and others?
    Mr. Murphy. I don't know why they would.
    Mr. Price. All right. Now, in terms of the cost of these 
overnight stays, which of course is the bottom line in terms of 
the appropriations process, what expenses connected with these 
overnight stays are reimbursable, and thus, have been picked up 
by the first two aspects--and particularly the second aspect of 
this inquiry?
    Mr. Murphy. If I could defer to our auditor on that 
question who has been looking at the documents and the cost, I 
would like to.
    Mr. Clark. To the extent that overnight guests have a meal 
at the White House, the way the system is supposed to work in 
the White House is the First Family is billed for that cost. 
And that cost is included in the monthly billing to the First 
Family. And the First Family reimburses out of the President's 
own funds.
    Mr. Price. So the expenses for meals are reimbursable and, 
thus, have been picked up, individually and in the aggregate in 
the second aspect of this investigation.
    Mr. Clark. That is correct.
    Mr. Price. All right. That takes care of meals. What other 
expenses are we talking about?
    Mr. Clark. We are not aware of any other expenses related 
to overnight guests for which reimbursement is sought.
    Mr. Price. So the bulk of the expenses are covered under 
this reimbursable category; is that true, the bulk of likely 
expenses?
    Mr. Clark. That assumes that meals are the largest part of 
the cost of an overnight stay.
    Mr. Price. What else would be?
    Mr. Clark. Well, at this point we have three components 
that we are dealing with. The first is obviously the meals. The 
second is the term that we use, overhead, which include things 
such as electricity and the like. And the third is labor costs, 
most notably overtime. And part of the work that we are doing 
now is trying to determine the extent to which overtime is a 
function or partly a function of overnight activity.
    Mr. Price. But in any case, you are talking about a 
fraction of overtime which might be attributable to overnight 
stays.
    Mr. Clark. That is correct.
    Mr. Price. When you talk about how precedented or 
unprecedented this might be, the kind of investigations you do 
on other official residences naturally come to mind--
ambassador's homes, for example, and high-ranking military 
personnel. Do you conduct these kinds of audits regarding 
overnight personal guests on Ambassador's residences?
    Mr. Clark. Personally, I have not done any work looking at 
Ambassador's residences. I don't know if anybody else in GAO 
has done that.
    Mr. Price. How about high-ranking military officials' 
residences on or off bases?
    Mr. Clark. I have not done any work in that regard.
    Mr. Price. Would you consider this to be a legitimate or 
important area of inquiry?
    Mr. Murphy. I think that would depend upon the committee's 
request and its interest. I really don't know. I mean, we 
haven't been presented with a request. I don't know what sort 
of costs are involved. I don't know why a committee might be 
interested in that.
    Mr. Price. You are not totally dependent, though, on 
committee requests to determine what might be legitimate or 
important areas of inquiry; are you?
    Mr. Murphy. No. The General Accounting Office does initiate 
reviews of its own. To my knowledge, we haven't initiated 
reviews of individuals spending the night with other Government 
officials.
    Mr. Price. Would you think this is something you ought to 
be investigating?
    Mr. Murphy. I think if we had thought so, we would have 
been doing it.
    Mr. Price. Do you think this kind of inquiry about 
overnight guests at the White House--about the aggregate number 
and duration of overnight stays----
    Is an area that you would and should have undertaken to 
investigate apart from a committee inquiry?
    Mr. Murphy. I don't think we would have looked at that 
independent of the interests of this committee.
    Mr. Price. Thank you. Thank you, Mr. Chairman.
    Mr. Kolbe. Thank you, Mr. Price. Mrs. Northup.
    Mrs. Northup. Mr. Chairman, I have a number of questions.
    First of all, I am having a little bit of trouble figuring 
out exactly what the delays are and what the responses from the 
White House are. Is the claim that the White House, are not 
cooperating because of personal issues or that they are, as Mr. 
Hoyer suggested, covered under a different statute or are they 
not claiming they are delaying? I mean, I sort of am having 
trouble with whether they are saying, wait a minute, let me 
figure out what you are asking for, we need to talk to other 
people about some of this, or are they actually claiming that 
the requests made for information don't apply to them because 
they fall under a separate statute?
    Mr. Murphy. The deputy counsel to the President and the 
associate counsel of the President have said to us in writing 
and orally that the documents which they have used to compile 
the publicly released number, the listed names of individual 
guests who had stayed in the Executive Residence, was compiled 
with--by private information of the First Family, at least in 
part, perhaps correspondence, perhaps notes made by the 
correspondence secretary, we really don't know. But at least in 
part by private information that was received by or maintained 
or created by the First Family. And the White House is not 
prepared to share that information with the General Accounting 
Office in order for us to complete this job.
    In the letter which we received from the associate counsel 
several weeks ago, she raised another issue, and that was that 
the access statute under which the General Accounting Office 
operates applies to agencies and that in her view the First 
Family or the Executive Residence didn't constitute an agency. 
And so they have replied on a legal ground, if you will, that 
it is beyond our statutory authority.
    Mrs. Northup. Okay. Is there any doubt that the Secret 
Service doesn't maintain a list of who comes in and goes 
through those gates?
    Mr. Murphy. There is no doubt that they maintain a list. 
Whether that list will show individuals who are overnight or 
who come in for a few hours, we are not at all sure. We have 
been told by the former director of the Secret Service that 
the--the exit records are not as reliable for that purpose, 
because individuals don't always return their passes when they 
leave. A pass may be received in the mail a week later. And one 
might suspect that the individual was within the White House 
for a week, but in fact they are only there for 2 hours.
    Also, I understand that the records may not show 
individuals who go to the Executive Residence as opposed to 
other aspects, other areas of the Executive Office of the 
President, such as the Oval Office or other areas in the West 
Wing. So we don't know that those records are--would be a 
reliable way for us to determine overnight stays or overnight 
guests.
    Mrs. Northup. There was also a question previously by a 
member of the committee that asked sort of, if you are not 
supposed to report till next spring, why are we having this 
meeting today. You have done a lot of audits, I presume, or 
represented the GAO. Don't you at some point have a sense of 
whether you are on track or not?
    Mr. Murphy. Yes, we do. That is why we wrote the letter to 
the White House last month.
    Mrs. Northup. And do you have a sense that the third part 
of this is not on track.
    Mr. Murphy. Yes, ma'am.
    Mrs. Northup. Okay. The question was asked, something about 
what kind of signals have you been sending the White House, 
almost like do--should they be particularly concerned?
    I guess my question is, what kind of signals has the White 
House sent you? I mean you call up and you--or you write, and 
you ask for an appointment. And I guess sometimes people say, 
why don't you come in Monday afternoon, in 4 days, and there 
are other times, 2 weeks later they say, why don't you come in 
6 weeks from Wednesday. That sends a signal to me when I get 
that kind of response. What kind of signals have you been 
getting?
    Mr. Murphy. I think it is fair to say that we received 
sometimes prompt cooperation, and at other times, due to the 
schedulings of individuals in the White House it has been more 
difficult for us to get together. I think what we were looking 
at is the overall time period which has run from the time we 
initiated discussions concerning our interest in obtaining the 
documents to respond to the third request to the subcommittee 
in October. And it seemed to us that a sufficient period of 
time had elapsed during which we had had a lot of discussions 
with the White House but hadn't actually received any 
documents, that it was time for us to formalize our request.
    Mrs. Northup. Do you have the sense here that, in trying to 
determine how many overnight stays by how many people, that you 
have to in a sense guess the right question? In other words, 
you say, well, what about the Park Service? Well, what about 
the CIA? And if you don't guess the exact file you might find 
that in, that nobody is going to offer that information to you.
    Mr. Murphy. It hasn't been offered to date. One of the 
reasons we decided to be very specific in requesting access to 
specific individuals within the Executive Office of the 
President was to start that train of investigation ourselves, 
so that we could go from person to person finding out what 
kinds of documents they may have created, they may know about, 
what kinds of systems or records they may maintain.
    For example, we know that the chief usher has an 
information system. We don't know whether that information 
system will provide the number of guests or stays. But if we 
can talk to the chief usher, we can find out whether there are 
records in his possession that would allow us to complete our 
job.
    Mrs. Northup. Well, in closing, I just want to respond to 
what I have heard here today. I have got to say, Mr. Chairman, 
that I am reminded of when I was dealing with my 4-year-old 
daughter years ago. And I said, ``Katie, I think you ate one of 
the Popsicles that was in the freezer.'' And she said, ``No, I 
didn't.'' And I said, ``Now, wait a minute, Katie. I brought 
these home. There were six Popsicles. There are five.''
    Well, it turns out it wasn't in the freezer. She never put 
it in the freezer. It turns out she didn't eat it; she sucked 
on it, you know.
    But I go ahead--I really have that feeling that that is--
that I am sort of reliving these sort of questions and answers 
when I see this. And unless you are Rip Van Winkle in this 
country there is reason we are talking about overnight stays. 
And this committee is charged with appropriating the money, the 
taxpayers' money to fund the White House, and there is 
certainly a question of overnight stays, whether they were 
excessive, whether other groups should have been reimbursed for 
them. And assuming you didn't just wake up from a 20-year 
sleep, there is a reason why we are not doing this in every 
Ambassador's residence, for example.
    And when we say some fraction of overtime, I would remind 
you that could be 1 percent or 99 percent, and the taxpayers 
have a right to know. So I am encouraging you to ask very 
specific questions and to set times, reasonable times, and I 
guess I sort of thought that the counsel probably talked to the 
chief usher if they wanted that information, and that they all 
sort of walked around the same city and residence and know the 
chain of command so that you could ascertain where the 
information is if you really wanted to be cooperative and 
forthcoming. It seems to me by the fact that we have to go 
through all sorts of letters and so forth so that maybe we can 
ask the chief usher is a delay and a torturous route that 
really suggests to me that I ought to open my eyes and look at 
this a little more closely.
    Thank you.
    Mr. Kolbe. I thank the gentlelady. The gentlelady's time 
has expired.
    Let me get to another area of questioning here. I had a 
series of questions I was going to do, but I think we have 
covered the steps you follow in conducting an audit. And I 
think we have also covered the specific steps you have taken 
with the White House in terms of the date of your requests and 
meetings and so forth.
    Let me just go to yesterday's meeting. You said that you 
had a discussion yesterday or a meeting with the White House 
Counsel's Office to discuss access to documents relevant to 
overnight stays and overnight guests. At that meeting, did the 
White House agree to give you access to the necessary documents 
and/or what have they agreed to do?
    Mr. Murphy. They have agreed as of this morning----
    Mr. Kolbe. In the letter that you just delivered to us?
    Mr. Murphy. Yes. They have agreed to cooperate, let me see. 
Can I----
    Mr. Kolbe. Do you want to make that a part of the record?
    Mr. Murphy. Certainly.
    Mr. Kolbe. This----
    Mr. Murphy. We will provide a copy for the record.
    Mr. Kolbe. This will be made part of the record.
    Mr. Murphy. The letter states: We will work to arrange 
meetings with staff to assist you in determining whether there 
are other means to verify the guests in light of concerns over 
the privacy of the documents that the White House used.
    The last sentence of the letter says: I will contact you as 
soon as possible to arrange the meetings you requested with 
various staff members. If you have any questions in the 
meantime, please feel free to call.
    [The information follows:]

[Pages 26 - 27--The official Committee record contains additional material here.]


    Mr. Kolbe. So they have agreed to basically further 
meetings and make staff available, but they haven't said who 
and they haven't said whether that staff will be allowed to 
discuss with you documents or which documents or to show you 
documents; is that correct?
    Mr. Murphy. I think it is fair to say our request was we 
would like to talk to the staff in order to identify documents 
and that is probably implicit in what the associate counsel 
states.
    What was of concern to me in reading the letter this 
morning, Mr. Chairman, was that there is a statement which 
said, we are willing to work with you to determine whether 
documents that are not personal and private are available, 
though it is likely that any such materials would be private 
and personal. So it may be that the White House staff has 
already determined what other documents are available.
    Mr. Kolbe. They are already deciding they are not going to 
be made available to you.
    The statement in the last paragraph is one that puzzles me. 
It said it was not until yesterday that they were told by you 
conclusively that what you were interested in was purely 
counting the number of guests, even if there was no way to 
measure any costs associated with those guests.
    Is that correct? I mean, do they have reason to have 
doubted what you were looking for from previous letters and 
meetings?
    Mr. Murphy. I thought we were pretty clear, Mr. Chairman.
    Mr. Kolbe. It seems to me from the record you have been 
quite clear. Mr. Hoyer talked about the fact that you are 
looking--you mentioned the overhead issues, whether it is the 
light, electricity, the water, the sewage, whatever. I think we 
have determined that there is no system or we think we know 
that there is no system that accounts and attributes a cost, an 
overhead cost specifically to individual guests that stay 
there; is that not correct?
    Mr. Murphy. That is correct.
    Mr. Kolbe. So what you have all said from the very 
beginning is what you are looking for is that which may be 
documentable. That is the overtime--first, the cost of meals 
which would be unvouchered expenses, and which you would have 
some documentation of, but then also there is the question of 
overtime; is that correct?
    Mr. Murphy. That is correct.
    Mr. Kolbe. So you have been very clear on that from the 
beginning.
    Will the unvouchered expenses audit include when and who 
paid for these items, how they were paid for? Is that part of 
what you look at? Does the unvouchered expenses show not only 
the dates of the vouchers, the dates of the payments, but who 
is making the reimbursement?
    Mr. Murphy. David.
    Mr. Clark. Yes, it does.
    Mr. Kolbe. Okay. So we will see that when we get that.
    Let me----
    Mr. Clark. Mr. Chairman----
    Mr. Kolbe. Yes.
    Mr. Clark. If I could interject, we do look at that. The 
way we do our work, though, is that if we don't find a problem, 
we don't report exactly how much food was consumed, for 
example, by the First Family or that it was paid for.
    Mr. Kolbe. I understand that. I am not looking for what 
kind of foods they ate. I am not looking for that or how much.
    Mr. Clark. Our report simply says that we have looked at 
that and we have found that the process works the way it is 
designed and that the expenditures were proper. But from a 
reporting point of view, we do not lay out how that process 
works.
    Mr. Kolbe. Give me an example, then, of what you mean if 
you found something that was improper.
    Mr. Clark. If we find something that is improper we will 
report that.
    Mr. Kolbe. I am not sure that I understand what we are 
talking about. What is an example? I am not suggesting----
    Mr. Murphy. Let me give you an example, Mr. Chairman. What 
David is discussing is the statutory restrictions on our 
unvouchered audits. The statute provides for, as you know, 
appropriations for five purposes: care and maintenance, repair, 
alteration of the Executive Residence, official expenses of the 
White House office, official entertainment expenses of the 
President, official entertainment expenses within the Executive 
Office of the President and subsistent expenses.
    The statute provides that we are to determine whether the 
expenses fall under three of those categories and that we may 
report that they do. We only report other information if we 
find that they don't fall within those categories, that there 
were unauthorized expenditures. In those cases, we are 
authorized to provide the amount to the committee. But if we 
conclude that all of the expenditures were authorized, we are 
restricted by statute from providing additional information to 
the committee about those expenses.
    Mr. Kolbe. That is still leaving me puzzled a little bit. 
But let me turn just a moment to what you have asked for from 
the White House. In one of the communications to you, the White 
House expressed their concerns about the personal and private 
papers of the First Family. In any of your meetings, has GAO 
specifically asked for access to personal and private papers of 
the First Family?
    Mr. Murphy. During the summer when we were told that the 
correspondence secretary had obtained the number and the list 
of guests that had been released to the papers, we asked to see 
the documents which the correspondence secretary had used to 
come up with that list because we thought that that would be 
the least intrusive and most direct way to confirm the list. So 
it turns out that, in effect, we were asking for private papers 
because that turns out to be the way the correspondence 
secretary obtained the numbers and the names. So I think it is 
fair to say yes, at least indirectly we were asking for those 
documents at the time.
    Mr. Kolbe. But in that case they used the personal papers 
or got the information to make it public?
    Mr. Murphy. They did use them; yes, sir.
    Mr. Kolbe. It is my understanding the Chief Usher keeps a 
log of guests. Have you been made aware of that log and has it 
been offered as a resource in verifying this?
    Mr. Murphy. No, sir.
    Mr. Kolbe. No to both parts? You have not----
    Mr. Murphy. No to either part. We know the chief usher has 
an information system. We don't know to the extent it has a log 
of guests or whether that would be useful in answering your 
question.
    Mr. Kolbe. I presume in your meeting with White House staff 
that would be one of the things that you would want to 
determine.
    Mr. Murphy. We have asked for access to the chief usher and 
his documents and his systems.
    Mr. Kolbe. Has it been your assumption that it might be 
necessary to have access to some of these personal papers to 
verify the numbers of the overnight stays?
    Mr. Murphy. It may be the case, yes, sir.
    Mr. Kolbe. Okay. In addition to the personal 
correspondence, you have mentioned the log of the Usher as a 
possible source. What other types of documents might be useful 
to you in determining this?
    Mr. Murphy. We don't know what other kinds of documents are 
maintained. It may be that the housekeeping staff are provided 
information on a daily basis about the number of people who 
will be staying overnight. It may be that the maitre d', it may 
be that the executive chef, it may be that other individuals 
within the complex are provided information about overnight 
guests and have records. We just don't know that at this time.
    Mr. Kolbe. The White House has told you that the documents, 
other documents supporting the accuracy of the number of 
overnight guests, quote, would not be reliable from an 
auditor's standpoint, unquote. As an auditor, what do you 
consider to be reliable?
    Mr. Murphy. I am going to ask our auditor to answer that 
one.
    Mr. Clark. That takes judgment on our part. What we are 
looking for when we see documentation is some way of 
corroborating its authenticity. And typically we do that by 
looking at other source documents or through conversation.
    Mr. Kolbe. But you can't make that judgment unless you see 
it.
    Mr. Clark. That is correct.
    Mr. Kolbe. Finally, let me just very quickly touch on the 
issue of the privacy. You spoke about the importance to GAO in 
terms of maintaining your credibility of respecting the privacy 
of the President and his family. To your knowledge, has the GAO 
ever revealed publicly information that would be embarrassing 
to the President or the Vice President or the First Family?
    Mr. Murphy. Certainly not to my knowledge. In fact, the 
unvouchered expense audits which we conduct look at fairly 
personal private information of the President.
    Mr. Kolbe. I was going to say you are doing this now and 
you have done this before; haven't you?
    Mr. Murphy. Ranging from what kind of toothpaste is 
purchased or what kind of food they eat, that kind of 
information we look at regularly.
    Mr. Kolbe. And that certainly would not be made in your 
report to us.
    Mr. Murphy. No, it would not.
    Mr. Kolbe. Has anything that you or your staff said or 
inferred suggested that this tradition of keeping these 
documents confidential is in jeopardy?
    Mr. Murphy. No. In fact, we have explicitly offered to 
maintain the documents within the White House, not take them 
out, not copy them in order to provide some assurance to the 
White House that we would respect the confidentiality of 
information in those documents, that we would only use the 
documents in order to aggregate numbers of guests and stays.
    Mr. Kolbe. Do you have formal policies for your staff 
regarding the disclosure of personal or otherwise sensitive 
information? Are they written down or general guidelines that 
you discuss them?
    Mr. Murphy. No. We have a policy manual. We have procedures 
in which we maintain the confidentiality of information. Tax 
records, for example, Mr. Chairman, we have a whole section of 
the building that is--has special security procedures so that 
we can maintain the confidentiality of tax records of the 
American public. We have lots of procedures that we use.
    Mr. Kolbe. Without having to put a mountain of documents 
into the record, if there is some specific policies that would 
be relevant to this area that go to the security of personal 
documents, would you please make those available for the record 
here?
    Mr. Murphy. I will.
    [The information follows:]

[Pages 32 - 41--The official Committee record contains additional material here.]


    Mr. Kolbe. Mr. Hoyer.
    Mr. Hoyer. Mr. Chairman, just to observe on that premise, 
if I have got information that I think is personal and somebody 
comes up to me and says, give it to me, I will keep it secret, 
and I don't think it is any of their business, whether they 
will keep it secret or not is totally irrelevant to me. If, in 
fact, it is personal information, it is personal to me. If I 
choose to disclose it, I disclose it. If I don't choose to 
disclose it, I don't. Whether or not the recipient of that 
information will say they will keep it secret, frankly, is 
irrelevant. If, in fact, the threshold question is, is this 
personal information to the President to which GAO does not 
have a right, and I think that is up in the air, 
notwithstanding Counsel, your learned judgment as to what is 
and is not disclosable, then I think that giving it to somebody 
who says they are going to keep it secret and confidential is 
irrelevant. The issue is whether or not it can be turned over 
and whether or not the White House has a right to keep any of 
its information.
    The gentlelady from Kentucky said that visits might be 
excessive. That was her word. Presumably excessive is in 
relationship to something. Will you be at some point in time, 
Counsel, Mr. Clark, be able to tell me how many visitors 
President Johnson had to the White House?
    Mr. Clark. That is not part of our review.
    Mr. Hoyer. No. Do you have that information available to 
you?
    Mr. Clark. No.
    Mr. Hoyer. President Nixon?
    Mr. Clark. No.
    Mr. Hoyer. Are there any records in your agency that 
reflect the personal visitors to President Nixon's, White 
House?
    Mr. Clark. I don't believe we have any records.
    Mr. Hoyer. President Ford?
    Mr. Clark. The answer is no.
    Mr. Hoyer. President Carter?
    Mr. Clark. The answer is no.
    Mr. Hoyer. President Regan?
    Mr. Clark. The answer is no.
    Mr. Hoyer. President Bush?
    Mr. Clark. Again the answer is no.
    Mr. Hoyer. All right. My point being there will be no way, 
then, for this committee to draw the conclusion, am I correct, 
as to whether the amount of visitors if you count them is more 
or less than prior Presidents; is that correct?
    Mr. Clark. I don't think you would be able to do that from 
GAO's past work.
    Mr. Hoyer. And if GAO had been asked to do that, presumably 
they would have generated such a record?
    Mr. Clark. That is correct.
    Mr. Hoyer. So one could conclude that this is the first 
time that such information has been sought by a committee of 
Congress, whether the President was Republican or Democrat.
    Mr. Clark. This is the first time we are aware that 
question has been asked.
    Mr. Hoyer. Now, let us assume the usher keeps a record, Mr. 
Murphy, of Chelsea's visitor. Of what possible consequence is 
it to you, the General Accounting Office, or this committee 
that Chelsea had Mary Ann Smith visit her on October 17, 1996?
    Mr. Murphy. In----
    Mr. Hoyer. Or Katie.
    Mr. Murphy. In complying with the request of the 
subcommittee, it is of no interest to us, the identity of the 
individual involved. Except insofar as looking at the records, 
we might want to match two different systems of records to 
verify that an individual was there. We certainly have no 
interest in reporting or taking that information outside of the 
White House.
    Mr. Hoyer. And other than the cost consequence, it would 
have no auditing significance; am I correct?
    Mr. Murphy. Not for the job we are working on now.
    Mr. Hoyer. I want to be broader than that, Counsel. For 
auditing consequence, vis-a-vis the appropriate expenditure of 
public funds, would it have any consequence?
    Mr. Murphy. The identity of the individual? No, sir.
    Mr. Hoyer. All right. Then the usher, in keeping that list, 
the First Family, well, you wouldn't know that. But I will 
suggest that the First Family has an expectation of privacy of 
Chelsea's visitors, Hillary's visitors, and the President's 
visitors in the private residence.
    And if we compelled the disclosure of those names, again, 
notwithstanding the fact that you would say it is not necessary 
to disclose them, would be a violation of that expectation of 
privacy, which I understand is the White House counsel's 
contention, not mine. They believe there are personal documents 
that deal with the private life of the President and the First 
Family which, if they disclose them to you, notwithstanding 
your contention that they are to be used simply for a limited 
purpose, would nevertheless be disclosure of information that 
the White House counsel says the President has a right under 
statute to hold private. Is that an accurate----
    Mr. Murphy. I think you are right. The White House itself 
has released 800-some odd names of guests that have spent the 
night at the Executive Residence. Those individuals which they 
have not released consist of Government employees and personal 
friends of the First Family and Chelsea. Those are clearly the 
most sensitive information that the White House counsel desires 
to protect.
    Mr. Hoyer. Counsel, I found it interesting, because you 
referred to your June 17, 1997, letter a couple of times. And, 
frankly, I would recognize for everybody in the room that this 
is a lawyer quibbling, but we tend to do that. In your 
testimony which you read, you almost read verbatim from page 4 
of your testimony, on June 17, we provided the associate 
counsel of the President with an informal list of four areas 
related to the overnight stays that we, and the phrase in your 
written testimony is, ``we wanted to discuss.'' On page 4. The 
way you gave the testimony, however, was stays that we 
``needed'', to discuss including the nature, location, and 
people responsible.
    Now, the reason I quibble on that is there is a difference 
between saying, in your June 17 letter, that you want to 
discuss something and saying we need it. In your written 
testimony, you say you wanted to discuss it. In your oral 
testimony at that same point, you said, we needed to.
    The consequences of that nuance of a difference is that 
perhaps you said you wanted to talk to the White House about it 
as opposed to saying we need these documents, and that there 
is, then, an implication that they are somehow stonewalling on 
the documents. Their contention all along has been, am I 
correct, that the way they got the number was from personal 
documents of the President.
    Mr. Murphy. No, they have not deviated.
    Mr. Hoyer. They have not deviated. So that has been their 
contention from the beginning. We are still at the point in 
time where both of you, as I understand your discussion with 
the White House, is how you get to this number without 
violating the privacy of the First Family?
    Mr. Murphy. Yes, sir.
    Mr. Hoyer. Okay. Thank you. I have no further questions.
    Mr. Kolbe. Mr. Wolf.
    Mr. Wolf. I don't really have any questions. But just for 
this one. Do you believe that the information that you are 
requesting is a reasonable request?
    Mr. Murphy. If we thought it was unreasonable, we would 
have advised the Chairman of that, yes, sir.
    Mr. Wolf. Okay.
    Mr. Kolbe. Ms. Northup.
    Mrs. Northup. First of all, if you, for example, see that 
Chelsea has a friend over one night on one list and then you 
see that there is a list of meals and there is a friend that 
was Federal, that sort of gives you an idea that the 
information matches and that the logs are kept in a routine 
manner.
    Mr. Murphy. That is right.
    Mrs. Northup. There is some routine here. When we first 
started this I didn't know what we were looking for or anything 
else. I don't know whether Mr. Hoyer does. But I guess the only 
thing that would occur to me is, if one of those friends 
happened not to be Mary Ann Smith but was, I don't know, John 
Huang, or if the DNC reimbursed the meals, that would sort of 
be information that would be very appropriate for taxpayers to 
know.
    Is that the sort of information that this audit would then 
provide? Would that be the sort of information--I sort of 
didn't understand what Mr. Kolbe was asking when he said what 
sort of information would come out. Certainly not the names of 
children that spent the night in the White House and who 
reimbursed their stay. Would it be if a reimbursement check 
came in from somebody that seemed inappropriate? Would that 
come out in this audit?
    Mr. Clark. All the food that is consumed by the First 
Family and their guests is billed to the First Family. That is 
part of what we look at in our audit. And one of the things we 
determine is to make sure that, in fact, all the food is 
accounted for, all the food is billed, that the bill is sent to 
the First Family, and that the First Family does make that 
reimbursement. And in the past we have been able to determine 
that that is the case and that is part of what we are doing 
now. If there was a case where the bills are not being prepared 
correctly or the bills were being submitted to parties other 
than the First Family or being reimbursed on behalf of the 
First Family, that is something that would certainly we would 
want to follow up on. And we have not seen that case.
    Mrs. Northup. Okay.
    Mr. Kolbe. Sir, do you have any comments and conclusion 
here? We are going to wrap this up.
    Mr. Hoyer. Counselor, what is your definition of 
reasonable? In response to Mr. Wolf's question you said this 
was a reasonable request. I disagree with you on that as you 
have heard. But what is your definition of reasonable request?
    Mr. Murphy. I was referring to my legal analysis of the 
President's privacy interest and whether the committee's 
request went beyond the jurisdiction of the committee, whether 
it was minimally intrusive, whether it was made irrespective of 
whether there are alternative sources of the same information.
    And our conclusion, and when I said we would have advised 
the Chairman if we thought we had no legal right to obtain the 
information that we were seeking, we would have done it within 
that legal construct. And I used reasonableness as a shorthand 
for that. I understand that there can be differences of opinion 
about the respective legislative branch and executive branch 
rights with respect to certain information. And the privacy 
interest of the executive is clearly a real interest. It can be 
asserted, and it has to be weighed against the legislative 
interest.
    Mr. Hoyer. Given that, Counselor, and I think it is an 
excellent answer and it is the answer I would have given, given 
that the reason I believe it is unreasonable is because the 
answer to the question, whether it is 938 or 1038 or 838, as I 
understand it, still has almost no consequence as it relates to 
the jurisdiction or responsibility to this committee. That is 
to say, it is a de minimus fiscal consequence.
    That is what I have heard you saying, with the caveat that 
you have not yet determined possible overtime consequences. And 
I don't know how you are going to do that, but I assume that 
you are trying to do it. We will see your result but let us 
assume for the sake of argument now, that your conclusion does 
not show any demonstrable difference in overtime because of 
more guests. If that is the case, then what you concluded with, 
Counselor, was that there would be a relationship in terms of 
reasonableness between the necessity to obtain the information 
and the personal privacy interests of the President. That is to 
say that if there were a significant public purpose to be 
served for the compromising of that privacy, a court might be 
more inclined to say that the privacy interest could be 
overcome.
    In fact, in the Nixon cases that you cite in your written 
testimony, you essentially quote some of that material, the 
court clearly concluded that to whatever extent a privacy 
interest existed, that the public interest outweighed that 
privacy interest. Therefore, it seems to me reasonableness, 
Counselor, is subject to debate. I don't expect you to tell the 
Chairman or this committee that what we are asking is 
unreasonable. I think that would be unreasonable for us to 
expect you to confront us in that way. So I do not expect you 
to tell Mr. Kolbe what you want is unreasonable, we are not 
going to go get it. I don't want to put you in a bad spot, but 
you say the request is reasonable. It seems to me reasonable is 
if there is a good reason to get it. Then maybe we ought to go 
forward in pursuing what the President believes is private 
information. On the other hand, if it is a de minimus utility, 
which compromises the President's personal rights, I think the 
requests are unwarranted and unreasonable. That is my point.
    Do you want to respond to that or would you just like to 
leave it alone? I won't press you if you would like to leave it 
alone.
    Mr. Murphy. Well, I ought to--one small point of 
clarification. It is true that it is a balancing test. That one 
balances a number of factors and the courts look at a number of 
factors. And we indicated in our prepared remarks a number of 
those factors. And those are the sorts of factors that a court 
would weigh.
    With respect to our obligation to a requesting committee of 
Congress, we feel that if we initially make a determination as 
to whether we think it is going to be possible to obtain the 
records that are necessary in order to fulfill the request, and 
if we thought that we were going to have difficulty or be 
unable to obtain the records, we would inform the Chairman of 
that, and we haven't done that in this case.
    Mr. Hoyer. And I understand that and agree with that. I 
think that is an answer to a different question. But I won't 
press it. Thank you.
    Mr. Kolbe. Let me just end this hearing with a couple of 
comments. I want to respond to a couple of things that were 
said in the last round. Mr. Hoyer said it really is irrelevant 
as to whether or not the confidentiality is protected if it is 
private and not needed. I think it is very, very relevant. We 
think that it is necessary and legitimate to our function as a 
subcommittee, and it is very relevant whether or not it is 
protected.
    Every year, I turn over a lot of confidential information 
to the IRS and it is extremely relevant to me as to whether or 
not that information is protected.
    There was also the comment made about asking for the 
identity of individuals. This Subcommittee has never asked for 
the identity of a single individual. The White House said a 
total of 938 people stayed overnight in the White House and 
they released the names of 831. We did not ask for that. I 
might be curious about who some of the 152 of those people are. 
I have not asked for that. That is not what we are trying to 
get. And it was, in fact, indeed it was the White House itself 
in the press release that released the information about the 
Bush Administration that there had been 284 overnight guests in 
the Bush Administration. But the whole issue certainly is 
something that is being looked into.
    You have other Committees looking into the issue of who 
stayed there and to what extent this might have been an 
improper use of the White House. That is not what we are trying 
to look at. But I mean you have these memos from Ickes, dealing 
with that. You have the statements by the Democratic National 
Committee saying that stays at the White House were a very 
important part of the fund-raising. That is not the issue we 
are looking at. We are legitimately, I believe, looking at the 
issue of the cost of people who stayed there and whether or not 
this has been properly reimbursed. In order to know what those 
costs were, we have to know how many people have stayed there. 
We have never asked for the names of those people.
    So let me just say in conclusion that I intend to take the 
information that we have gotten here today, review it further. 
We will look at, after consultation with the leadership, we 
will decide what the next steps should be taken in this 
investigation.
    But I want to make one final point. For those in the 
audience who might be from the White House, I hope that you 
take what I am saying seriously. In the event that we pull the 
plug on this investigation because we are not able to get the 
information that we need, then I will take whatever actions I 
feel are necessary in the 1999 appropriations cycle to ensure 
that funding for the Executive Residence and its staff are 
based on actual workloads. If the White House refuses to 
disclose the information about the workloads, that is their 
choice and they will do so at their own risk. But I am not 
going to be held hostage to a White House that hides behind the 
cloak of privacy and secrecy in order to avoid answering 
questions about the legitimate activities that come under the 
jurisdiction of this Committee. It is suggested that the 
President would not dictate how Congress should spend their 
money on its staff and operations and therefore we should not 
be telling the President how he spends his money.
    I only respond by saying two things. If the President has a 
strong opinion on funding the legislative branch, he should 
make that opinion known. And if my memory serves me correctly, 
he did that in the 1997 appropriation bill which he vetoed.
    And second, Congress, not the President, has the 
constitutional authority to appropriate Federal revenues. The 
President recommends but in the end it is the Congress that 
appropriates those funds.
    With that, this hearing is adjourned.
    [Prepared Statements and Questions for the Record follow:]

[Pages 48 - 67--The official Committee record contains additional material here.]
                              <all>


</pre></body></html>
